     Department of Homeland Security





              FEMA Public Assistance Grant 

            Funds Awarded to Ochsner Clinic 

           Foundation, New Orleans, Louisiana





DD-12-15                                         June 2012

June 20, 2012
                             OFFICE OF INSPECTOR GENERAL
                                 Department of Homeland Security


   We conducted this performance audit between September 15, 2011, and January 18,
   2012, pursuant to the Inspector General Act of 1978, as amended, and according to
   generally accepted government auditing standards. Those standards require that we
   plan and perform the audit to obtain sufficient, appropriate evidence to provide a
   reasonable basis for our findings and conclusions based upon our audit objective. We
   believe that the evidence obtained provides a reasonable basis for our findings and
   conclusions based upon our audit objective. We conducted this audit according to the
   statutes, regulations, and FEMA policies and guidelines in effect at the time of the
   disaster.

   We interviewed FEMA, GOHSEP, and Ochsner officials; reviewed judgmentally selected
   project costs (generally based on dollar value); reviewed Ochsner’s 2005–2010 annual
   financial statements; reviewed Federal audit reports applicable to Ochsner (see the
   Other Matters section of this report); reviewed expenses and revenues Ochsner
   presented in congressional testimony; reviewed a detailed analysis the State of
   Louisiana prepared describing the source of Federal disaster assistance provided by
   another Federal agency to Ochsner through the State; and performed other procedures
   considered necessary to accomplish our objective. We did not assess the adequacy of
   Ochsner’s internal controls applicable to grant activities because it was not necessary to
   accomplish our audit objective. We did, however, gain an understanding of Ochsner’s
   methods of accounting for disaster-related costs and its procurement policies and
   procedures.


                                        BACKGROUND

   Ochsner, a Louisiana nonprofit corporation headquartered in New Orleans, Louisiana,
   owns and operates, directly or through its fully owned affiliates, 8 regional hospitals, an
   11-story clinic, a 143-room hotel, and 35 health centers throughout southeast Louisiana.
   In August 2005, Hurricane Katrina’s winds, wind-driven rain, and catastrophic flooding
   damaged buildings and interrupted health care operations at Ochsner’s medical
   facilities.


                                      RESULTS OF AUDIT

   Ochsner did not account for and expend FEMA grant funds according to Federal
   regulations and FEMA guidelines. Ochsner’s insurance carriers fully reimbursed Ochsner
   for all FEMA-eligible expenses. Therefore, Ochsner’s entire grant, currently obligated
   for $18.3 million, is ineligible for FEMA funding. Although Ochsner’s insurance proceeds
   made its entire grant ineligible for FEMA funding (finding A), we determined that


www.oig.dhs.gov                                2                                         DD-12-15
                             OFFICE OF INSPECTOR GENERAL
                                 Department of Homeland Security


   $9,673,862 of the $18,266,765 grant was also ineligible for reasons other than
   insurance. Specifically, we identified the following ineligible costs questioned under
   other criteria:

           Finding B.    $4,781,162 of costs claimed for 16 contracts that Ochsner
                         awarded after the exigent/emergency period without competition
           Finding C.    $2,426,451 of unsupported contract costs
           Finding D.    $2,197,550 of replacement costs that exceeded repair costs
                         questioned because FEMA officials did not correctly apply the “50
                         Percent Rule” when deciding to replace, rather than repair,
                         Ochsner’s Algiers Clinic
           Finding E.    $199,938 of costs that were outside the approved project scopes
                         of work
           Finding F.    $62,828 in duplicate costs
           Finding G.    $5,933 for a credit that Ochsner received, but did not deduct from
                         its claim, as required

   We also identified $170,409 in unused funding for completed work that FEMA could
   have put to better use (finding H). Generally, these findings resulted because GOHSEP did
   not effectively execute its responsibilities as the grantee (finding I). Accordingly, we
   recommend that FEMA—

       1.	 Disallow $18,266,765 of ineligible project costs covered by insurance and
           request that GOHSEP recover $11,668,346 of funding reimbursed to Ochsner.

       2.	 Disallow costs questioned in findings B through G if Ochsner claims costs above
           the $32,678,597 of insurance proceeds that FEMA determined were applicable
           to FEMA-eligible costs/losses.

       3.	 Require GOHSEP to develop and implement procedures to better manage its
           responsibilities under its grants.

   Finally, the U.S. Department of Health and Human Services (HHS) provided $48.5 million
   in Medicaid funding to Ochsner, through the State of Louisiana, to cover financial and
   operating challenges caused by Hurricane Katrina. However, because Ochsner also
   received more than $55 million from its insurance carriers to cover both property
   damages and losses from business interruption, Ochsner may have recognized a net
   operating gain as a result of the catastrophe. Therefore, we will provide HHS and the
   HHS Office of Inspector General with copies of this report for their consideration.




www.oig.dhs.gov                                3	                                       DD-12-15
                             OFFICE OF INSPECTOR GENERAL
                                 Department of Homeland Security


   Finding A: Insurance Allocations

   Ochsner’s insurance carriers fully reimbursed Ochsner for all FEMA-eligible expenses.
   Therefore, Ochsner’s entire grant, currently obligated for $18.3 million, is ineligible for
   FEMA funding. Section 312 (a) of the Robert T. Stafford Disaster Relief and Emergency
   Assistance Act, (Stafford Act), as amended, prohibits the receipt of PA funds with
   respect to any part of such loss where an applicant received assistance from insurance.

   Ochsner received $55.6 million in total insurance proceeds for both FEMA-eligible
   property losses and noneligible business interruption (BI) losses. This amount includes
   proceeds from a large legal settlement that Ochsner received in October 2008 after
   litigation with one of its insurance carriers. However, FEMA was not aware of the
   settlement, and therefore did not reduce eligible grant funding accordingly because
   GOHSEP, as the grantee, did not notify FEMA as required when Ochsner received its
   insurance proceeds.

   When we started our audit, FEMA had already applied $3,171,070 of insurance
   proceeds against Ochsner’s eligible project costs of $21,437,835, thus reducing the
   obligated grant amount to $18,266,765. However, after we informed FEMA about the
   large insurance settlement, FEMA officials determined that Ochsner should have applied
   up to $32,678,597 of the $55,629,197 in total insurance proceeds received to reduce
   FEMA-eligible losses ($55,629,197 total insurance proceeds, less $17,251,104
   attributable to noneligible BI losses), less $5,699,496 of legal costs equals $32,678,597).
   Therefore, in addition to the $3,171,070 FEMA has already applied to reduce Ochsner’s
   projects, another $29,507,527 in insurance proceeds remains available for application to
   reduce Ochsner’s projects ($32,678,597 total insurance proceeds less $3,171,070
   already applied).

   Ochsner officials said they did not provide FEMA or GOHSEP the settlement
   documentation because they considered the entire settlement allocable to BI losses,
   which are not eligible for FEMA reimbursement. However, we discussed the insurance
   settlement with FEMA officials, who said Ochsner should have applied the entire
   insurance settlement to FEMA-eligible projects because the insurance policy on which
   Ochsner based its litigation specifically listed the FEMA-eligible buildings. Although we
   generally agree with FEMA’s reasoning, at our exit conference FEMA officials said that,
   after further review, they were no longer certain that Ochsner’s insurance proceeds will
   completely eclipse its FEMA-eligible costs and, therefore, FEMA officials plan to work
   with Ochsner and GOHSEP officials to arrive at an equitable allocation of the insurance
   proceeds.




www.oig.dhs.gov                                 4                                         DD-12-15
                                 OFFICE OF INSPECTOR GENERAL
                                     Department of Homeland Security


   Therefore, FEMA should (1) disallow $18,266,765 of ineligible project costs covered by
   insurance and request that GOHSEP recover $11,668,346 of funding already reimbursed
   to Ochsner, and (2) disallow costs questioned in findings B through G if Ochsner claims
   costs above the $32,678,597 of insurance proceeds that FEMA determined were
   applicable to FEMA-eligible costs/losses.

   Finding B: Contracting

   Ochsner did not comply with Federal contracting requirements after the exigent period.
   The exigent period is the time when immediate actions are required to protect life and
   property. We generally do not question costs based on noncompliance with contracting
   regulations when lives and property are at risk. However, once the danger passes,
   applicants should fully comply with Federal contracting regulations. Therefore, we
   question $4,781,162 in costs claimed for 16 contracts that Ochsner awarded without
   competition after the exigent period.

   Federal regulations at 2 CFR 215,2 require, among other things, that—

       •	 All procurement transactions shall be conducted in a manner to provide, to the
          maximum extent practical, open and free competition. (2 CFR 215.43)

       •	 Some form of a cost or price analysis shall be made and documented in the
          procurement files in connection with every procurement action. (2 CFR 215.45)

       •	 Specific provisions shall be included in all contracts and subcontracts. (2 CFR
          215.48)

       •	 Positive efforts should be made to ensure the use of small businesses, minority-
          owned firms, and women’s business enterprises. (2 CFR 215.44)

       •	 Procurement documents are to be made available for awards exceeding the
          small purchase threshold. (2 CFR 215.44)

   Ochsner did not (1) provide open and free competition for any contract; (2) perform the
   required cost or price analysis on many of its contracts; (3) include the required Federal
   provisions in many of its contracts; (4) make positive efforts to ensure the use of small
   businesses, minority-owned firms, and women’s business enterprises; or (5) provide

   2
    The Uniform Administrative Requirements for Grants and Agreements with Institutions of Higher
   Education, Hospitals, and Other Non-profit Organizations are located at 2 CFR 215 (formerly known as
   Office of Management and Budget Circular A–110).


www.oig.dhs.gov                                       5	                                             DD-12-15
                                   OFFICE OF INSPECTOR GENERAL
                                       Department of Homeland Security


   procurement documents for awards exceeding the small purchase threshold for its
   contract work.

   Ochsner solicited contract work from vendors on its preferred contractor list and from a
   group purchasing organization. These contracts consisted of project work requiring
   specialists in architecture and engineering, roofing, mechanical and electrical, and
   security services. Ochsner officials said they used these sources because they worked
   well for them in the past. Ochsner officials also said that neither FEMA nor GOHSEP
   officials informed them that their contracting procedures did not comply with Federal
   regulations. However, we determined that GOHSEP did provide procurement guidance
   to key Ochsner officials several times.

   FEMA’s general practice has been to allow contract costs it considers reasonable
   regardless of compliance with Federal procurement regulations. We do not agree with
   this practice because the goal of proper contracting involves more than just cost.
   Without open and free competition, FEMA has little assurance that contract costs are
   reasonable. Open and free competition not only provides an environment for obtaining
   reasonable pricing from the most qualified contractors, it also discourages favoritism,
   collusion, fraud, waste, and abuse.

   Finding C: Documentation of Costs

   Ochsner’s claim included $2,426,451 of unsupported contract costs. The invoices for
   these costs did not include supporting documentation, such as timesheets and work logs
   for labor, contract agreements or rate schedules, and evidence of vendor payments.
   Cost principles at 2 CFR 230, Appendix A, Section A.2.g, state that a cost must be
   adequately documented to be allowable under Federal awards. Therefore, we question
   the following costs totaling $2,426,451 as unsupported:

         •	 $2,156,902 for costs claimed under several projects for work related to time­
            and-materials contracts.3 Ochsner was unable to provide timesheets, work logs,
            contract agreements, and contract rate schedules for these costs. This occurred
            because Ochsner officials did not obtain records needed to support the billings
            from contractors. Without adequate labor and equipment records and contract
            agreements, there is no assurance that contractors billed according to the
            contracted rates and for approved project activities.




   3
       Projects 4520, 4538, 4610, 4908, 9217, 9223, 12227, and 16445.


www.oig.dhs.gov                                         6	                             DD-12-15
                                 OFFICE OF INSPECTOR GENERAL
                                      Department of Homeland Security


       •	 $259,549 that Ochsner plans to claim under Project 18628 for construction costs
          associated with its Algiers Clinic. Ochsner was unable to provide evidence that it
          paid the invoice.

       •	 $10,000 for costs claimed under Project 9217 to procure, furnish, and install
          temporary trailers at its Algiers Clinic. Ochsner submitted an invoice for $19,047;
          however, because of a dispute with the contractor, Ochsner paid only $9,047 of
          the $19,047 invoiced amount, resulting in $10,000 in unsupported costs.

   Ochsner officials generally disagreed with this finding and plan to prepare a formal
   response after talking with FEMA and GOHSEP officials, as well as their attorneys.

   Finding D: Clinic Replaced Rather than Repaired

   FEMA officials did not correctly apply the “50 Percent Rule” when deciding to replace,
   rather than repair, Ochsner’s Algiers Clinic. As a result, replacing the clinic will likely cost
   $2.2 million more than repairing it would have cost. FEMA used an expedited and
   inaccurate method to estimate costs that significantly underestimated replacement
   costs. FEMA cost estimators used the expedited method because they believed that
   FEMA policy allowed them to use it and that it produced sufficiently accurate results.

   According to Federal regulation 44 CFR 206.226(f)(1), “A facility is considered repairable
   when disaster damages do not exceed 50 percent of the cost of replacing a facility . . . .”
   FEMA refers to this regulation as the “50 Percent Rule” and implements it according to
   its Disaster Assistance Policy 9524.4. FEMA uses this decision-making policy to
   determine whether to fund the repair or replacement of a disaster-damaged facility.4

   In this case, FEMA estimated that it would cost $278,997 to repair the clinic (hard costs
   only) and $512,250 to replace the clinic (hard costs only). 5 Therefore, FEMA decided to
   replace the clinic because the estimated costs to repair it were 54 percent of the
   estimated costs to replace it. However, FEMA’s replacement decision stemmed from
   incorrect and unsupported repair and replacement cost estimates. Rather than
   developing the detailed scope of work and itemized costs elements required by FEMA’s
   Cost Estimating Format, FEMA officials estimated the $512,250 replacement costs by

   4
     Federal regulation 44 CFR 206.226(f)(1) is clarified under various FEMA policies and publications, 

   including Public Assistance Guide FEMA 322, October 1999, pp. 28–31; Public Assistance Policy Digest, 

   October 2001, p. 106; and Disaster Assistance Policy DAP9524.4, September 24, 1998. FEMA updated 

   DAP9524.4 on March 25, 2009. 

   5
     Only direct construction costs, known as “hard” costs, can be included in the numerator or denominator 

   of either the repair or replacement costs under the 50 Percent Rule. “Soft” costs include demolition, site

   work, and project management costs.



www.oig.dhs.gov                                        7	                                              DD-12-15
                                    OFFICE OF INSPECTOR GENERAL
                                        Department of Homeland Security


   entering lump-sum square footage data, along with other general factors, into an off-
   the-shelf cost-estimating program. 6 In addition, rather than developing detailed
   individual repair cost elements, FEMA estimated the percentages of damage by broad
   type and multiplied these percentages by the estimated replacement costs to arrive at
   $278,997 to repair the building, or a 54 percent repair/replacement ratio ($278,997
   divided by $512,250). A ratio of 50 percent or greater indicates that FEMA should fund
   replacement of the building.

   Additionally, FEMA did not retain detailed support for its replacement calculation or the
   analysis it used to assess damages. Therefore, FEMA could not support the
   reasonableness of assumptions used in its estimates. FEMA’s current estimate of
   replacement costs is $2,476,547. Based on the dramatic escalation of replacement
   costs, Ochsner likely should have repaired the clinic, rather than replaced it. Regardless,
   FEMA used incorrect and unsupported repair and replacement cost estimates in making
   its decision. Therefore, we question as ineligible $2,197,550, calculated as the
   difference between the $2,476,547 gross amount obligated to replace the clinic and the
   $278,997 estimated to repair it. Ochsner officials generally disagreed with this finding
   and plan to prepare a formal response after talking with FEMA and GOHSEP officials, as
   well as their attorneys.

   Finding E: Scope of Work

   Ochsner’s claim included $199,938 for costs that were ineligible because they were
   outside the approved project scopes of work:

          •	 $132,191 for building replacement costs that was outside the scope of Project
             18628. GOHSEP also reviewed these costs and determined that Ochsner’s claim
             for Project 18628 should be reduced by $132,191.

          •	 $67,747 for glazing repairs and cleaning for skylights and atrium windows that
             was outside the scope of Project 16445.

   In addition, Ochsner erroneously claimed $1,503 under Project 11630 for cleaning costs
   that should be claimed under Project 12227, and erroneously claimed $1,047 under
   Project 4610 for roof repairs to the hospital clinic that should be claimed under Project
   11630. According to Public Assistance Policy Digest (FEMA 321, p. 75), funds for costs
   that are outside the scope of work approved by FEMA are not eligible. Therefore, we
   question $199,938 as ineligible; and FEMA should require GOHSEP to direct Ochsner to
   correct the errors identified by claiming costs under the appropriate projects. Ochsner

   6
       CEF for Large Project Instructional Guide, Version 2, November 1998.


www.oig.dhs.gov                                          8	                              DD-12-15
                             OFFICE OF INSPECTOR GENERAL
                                 Department of Homeland Security


   officials generally disagreed with this finding and plan to prepare a formal response
   after talking with FEMA and GOHSEP officials, as well as their attorneys.

   Finding F: Duplicate Costs

   The costs Ochsner incurred included $62,828 in duplicate costs. Ochsner claimed
   $31,120 under Project 6839 and $3,373 under Project 9217 for fees incurred for damage
   assessments. The costs of the damage assessments were duplicate costs because
   Ochsner’s statutory administrative allowance provides funding for such costs. FEMA’s
   Public Assistance Guide (FEMA 322, October 1999, pp. 41–42) specifically states that the
   cost of assessing damage, collecting cost data, and developing cost estimates are
   examples of the type of activity that the administrative allowance is intended to cover.

   Additionally, Ochsner intends to submit four invoices totaling $28,335 under Project
   12174 for the installation of telephone system and computer network cables and
   components used to set up temporary trailers at the Algiers Clinic. These costs were
   duplicate costs because they were already included under Project 9217. Therefore, we
   question $62,828 as ineligible duplicate costs. Ochsner officials generally disagreed with
   this finding and plan to prepare a formal response after talking with FEMA and GOHSEP
   officials, as well as their attorneys.

   Finding G: Costs Credited

   Ochsner received a $5,933 credit from its contractor for filter and oil costs under Project
   6839, but did not deduct the credit from its claim as required. According to cost
   principles at 2 CFR 230, Appendix A, Section A.5.a, applicable credits refers to those
   receipts or reduction of expenditures that operate to offset or reduce expense items
   that are allocable to awards as direct or indirect costs. To the extent that such credits
   received by the organization relate to allowable costs, the organization should credit
   these costs to the Federal Government. Therefore, we question $5,933 of costs claimed
   for Project 6839 as ineligible. Ochsner officials generally disagreed with this finding and
   plan to prepare a formal response after talking with FEMA and GOHSEP officials, as well
   as their attorneys.

   Finding H: Unused Funds

   GOHSEP did not provide closeout information to FEMA in a timely manner for 10
   projects that Ochsner had completed. As a result, $170,409 of Federal funds remained
   obligated that could have been put to better use. Ochsner completed work and claimed
   $4,801,207 in total costs for 10 projects, which was $170,409 less than the total amount



www.oig.dhs.gov                                 9                                          DD-12-15
                             OFFICE OF INSPECTOR GENERAL
                                 Department of Homeland Security


   FEMA estimated and approved for the projects. Ochsner completed the majority of
   these projects more than 3 years ago.

   Federal regulation 44 CFR 206.205(b)(1) requires grantees to make an accounting to the
   FEMA Regional Administrator of eligible costs for each approved large project “as soon
   as practicable after the subgrantee has completed the approved work and requested
   payment.” Therefore, GOHSEP should complete its reviews of all 10 projects and submit
   an accounting of eligible costs to FEMA so that FEMA can perform final or partial
   closeouts of the projects.

   We consider 6 months after the subgrantee has completed the approved work and
   requested payment a reasonable amount of time for the grantee to complete its
   reviews of costs claimed and to submit an accounting of eligible costs to FEMA. Without
   timely closeouts, Federal funds remain obligated as a liability against FEMA’s
   appropriated funds and can limit FEMA’s ability to authorize other disaster assistance
   projects. Normally, we would recommend that FEMA deobligate the $170,409 and put
   those Federal funds to better use; however, these funds will be deobligated after FEMA
   disallows the costs questioned in finding A.

   Finding I: Grant Management

   The majority of findings in this report occurred because GOHSEP, as the grantee, should
   have managed its responsibilities better. According to 2 CFR 215.51(a), grantees are
   responsible for managing and monitoring each project, program, subaward, function, or
   activity supported by the award.

   Additionally, grantees are required to “immediately notify the Federal awarding agency
   of developments that have a significant impact on the award-supported activities. Also,
   notification shall be given in the case of problems, delays, or adverse conditions which
   materially impair the ability to meet the objectives of the award. This notification shall
   include a statement of the action taken or contemplated, and any assistance needed to
   resolve the situation” (2 CFR 215.51(f)). Other Federal regulations specifically require
   the grantee to notify FEMA of any entitlement to an insurance settlement or recovery
   (44 CFR 206.252(c) (flood) and 44 CFR 206.253(a) (other than flood)).

   GOHSEP did not notify FEMA that Ochsner had received a large insurance settlement.
   As a result, FEMA was not aware of the settlement and did not reduce eligible grant
   funding accordingly. We also cited instances throughout this report in which Ochsner
   did not comply with Federal regulations. It is not enough for GOHSEP to merely advise
   subgrantees of Federal regulations; consistent with Federal regulations, GOHSEP is
   “responsible for managing and monitoring each project, program, subaward, function,


www.oig.dhs.gov                                10                                        DD-12-15
                                 OFFICE OF INSPECTOR GENERAL
                                      Department of Homeland Security


   or activity supported by the award.” Further, the Hurricane Katrina FEMA-State
   agreement requires GOHSEP to comply with the requirements of laws and regulations
   found in the Stafford Act and its related Federal regulations.

   As of March 9, 2012, FEMA had approved $262.8 million in management and
   administrative costs to GOHSEP since August 2005 for managing the $10.4 billion in
   approved grant funds to the State of Louisiana for Hurricane Katrina, including the
   amount paid to Ochsner. Although we are not commenting on the overall
   reasonableness of these management costs, we point out that FEMA is paying GOHSEP
   to manage this disaster and therefore should require GOHSEP, as the grantee, to
   develop and implement procedures to better manage its responsibilities under this
   grant. At the exit conference, GOHSEP officials noted that many of the problems
   identified in this report occurred several years ago and that GOHSEP has since taken
   steps to improve its oversight of its PA grant applicants.

   Other Matters

   Ochsner received $48.5 million in Medicaid funding from HHS, passed through the State
   of Louisiana House Bill 879, as a supplement for “substantial financial and operational
   challenges in the aftermath of Hurricane Katrina.” 7 We determined these facts in part
   by reviewing (1) Ochsner’s financial statements for 2005 through 2010, (2) a detailed
   analysis that the State of Louisiana prepared of Federal disaster assistance funds that
   HHS provided to Ochsner through the State, and (3) reports prepared by the U.S.
   Government Accountability Office (GAO) and the HHS Office of Inspector General (OIG). 8
   In its report, GAO estimated that Ochsner would realize a net income of $5.6 million in
   2007 and suffer a net loss of $18.1 million in 2008, largely attributed to Hurricane
   Katrina. However, as cited in the earlier finding on insurance proceeds, Ochsner
   received a large insurance settlement in 2008 that was not included in GAO’s 2008 net
   loss estimate.

   We compared the total damages reported by Ochsner (approximately $86.5 million) to
   the overall disaster assistance Ochsner received for Hurricane Katrina ($104 million),
   and estimated that Ochsner may have realized a net profit of $17.7 million, not
   including the $21.4 million that FEMA estimated for property losses before insurance
   was applied. Because Ochsner may have profited from the Medicaid funding, HHS
   should determine whether this funding level was appropriate. Because this issue does

   7
    Appropriations Act 228 of 2009 Regular Session.

   8
    GAO-08-681R, Hurricane Katrina: Trends in the Operating Results of Five Hospitals in New Orleans before 

   and after Hurricane Katrina, July 17, 2008; HHS OIG report, A-01-08-00507, Review of Expenses and 

   Revenues Presented in Congressional Testimony by Ochsner Health System, July 29, 2008. 



www.oig.dhs.gov                                       11                                              DD-12-15
                             OFFICE OF INSPECTOR GENERAL
                                 Department of Homeland Security


   not involve FEMA funds, we have no recommendation for FEMA. However, we will
   provide a copy of this report to HHS and the HHS OIG for their review.


                                   RECOMMENDATIONS

   We recommend that the Regional Director, FEMA Region VI:

   Recommendation #1: Disallow $18,266,765 of ineligible project costs covered by
   insurance and request that GOHSEP recover $11,668,346 of funding reimbursed to
   Ochsner (finding A).

   Recommendation #2: Disallow ineligible contract costs questioned in finding B unless
   FEMA grants Ochsner an exemption, with proper justification, to the applicable Federal
   procurement requirements (finding B).

   Recommendation #3: Disallow costs questioned in findings C through G if Ochsner
   claims costs above the $32,678,597 of insurance proceeds applicable to FEMA-eligible
   costs [or the final amount FEMA determines based on future adjustments to insurance
   proceeds] (findings C–G).

   Recommendation #4: Require GOHSEP to complete its closeout accounting of the
   10 completed large projects identified in this report (finding H).

   Recommendation #5: Require GOHSEP to develop and implement oversight procedures
   to improve its monitoring of its subgrantees (finding I).


                  DISCUSSION WITH MANAGEMENT AND AUDIT FOLLOWUP

   We discussed the results of our audit with FEMA, GOHSEP, and Ochsner officials during
   our audit and included their comments in this report, as appropriate. We also provided
   a draft report in advance to these officials and discussed it at exit conferences held with
   FEMA officials on March 28, 2012, and with GOHSEP and Ochsner officials on March 29,
   2012. FEMA officials said they would continue to work with Ochsner and GOHSEP
   officials on the insurance allocation issue. Additionally, FEMA officials acknowledged
   the need for better compliance with Federal contracting requirements. However, FEMA
   officials said they would not agree to disallow funding based on contracting violations if
   they determined that the costs were reasonable. FEMA officials also said they would
   review the accuracy of cost estimates used in the 50 Percent Rule calculations and
   generally acknowledged the need to maintain proper supporting documentation.


www.oig.dhs.gov                                12                                        DD-12-15
                            OFFICE OF INSPECTOR GENERAL
                                Department of Homeland Security


   Overall, FEMA officials said they would reserve their final decisions regarding the
   findings and recommendations until after we issue this report. GOHSEP officials
   reserved comment on all findings and recommendations. Ochsner officials generally
   disagreed with the results of this audit, and stated that Ochsner had adhered to the
   guidelines on FEMA-eligible expenses as recommended by FEMA and GOHSEP officials
   for this disaster. Ochsner officials also said they intend to file a formal response to
   FEMA and GOHSEP.

   Within 90 days of the date of this memorandum, please provide our office with a
   written response that includes your (1) agreement or disagreement, (2) corrective
   action plan, and (3) target completion date for each recommendation. Also, please
   include responsible parties and any other supporting documentation necessary to
   inform us about the current status of the recommendation. Until your response is
   received and evaluated, the recommendations will be considered open and unresolved.

   Consistent with our responsibility under the Inspector General Act, we are providing
   copies of our report to appropriate congressional committees with oversight and
   appropriation responsibility over the Department of Homeland Security. We will post
   the report to our website for public dissemination. Significant contributors to this
   report were Tonda Hadley, Christopher Dodd, and Chiquita Washington.

   Should you have questions, please call me at (202) 254-4100, or your staff may contact
   Tonda Hadley, Director, Central Regional Office, at (214) 436-5200.




www.oig.dhs.gov                               13                                       DD-12-15
                                          OFFICE OF INSPECTOR GENERAL
                                                  Department of Homeland Security
                                                                                                                EXHIBIT A 

                                             Schedule of Projects Audited 

                                      August 29, 2005, to September 12, 2011 

                                  Ochsner Clinic Foundation, New Orleans, Louisiana

                                        FEMA Disaster Number 1603-DR-LA


                                                        Questioned Costs
                                                                                                Total Costs         Unused
                                                                                                Questioned           Funds
 Project                                                                             Findings   in Findings
 Number           Finding A       Finding B         Finding C        Finding D         E–G          B–G            Finding H
Projects in Initial Audit Scope
   3464          $     28,663     $           0     $          0     $           0   $      0   $           0        $      0
   4538                21,738                 0            4,214                 0          0           4,214               0
   4610               929,767                 0          664,675                 0          0         664,675             145
   4935               416,924                 0                0                 0          0               0               0
   5073               681,870                 0                0                 0          0               0               0
   5233                17,408                 0                0                 0          0               0               0
   6512                99,779                 0                0                 0          0               0           (200)
   6839               250,000                 0                0                 0     37,053          37,053        (93,753)
   7835                17,500                 0                0                 0          0               0               0
   9182                20,818                 0                0                 0          0               0               0
   9217               167,854                 0          102,481                 0      3,373         105,854               0
   9223                77,320                 0           77,320                 0          0          77,320               0
  11261               403,100                 0                0                 0          0               0               0
  11577                40,431                 0                0                 0          0               0               0
  11610               758,500                 0                0                 0          0               0          45,625
  11630               364,684                 0          112,346                 0          0         112,346        128,389
  11677                13,633                 0                0                 0          0               0               0
  11747                51,259                 0                0                 0          0               0               0
  11800               200,584           175,845                0                 0          0         175,845          24,739
  12174               316,204                 0                0                 0     28,335          28,335               0
  12227             1,360,748                 0          555,586                 0          0         555,586               0
  15647                40,556                 0                0                 0          0               0               0
  15937               372,236                 0                0                 0          0               0               0
  15993               692,667                 0                0                 0          0               0           2,510
  16118               230,241                 0                0                 0          0               0           2,782
  16189             2,661,409            15,300                0                 0          0          15,300               0
  16198             1,371,385           449,550                0                 0          0         449,550           3,872
  16203               101,300            45,000                0                 0          0          45,000          56,300
  16212                11,122                 0                0                 0          0               0               0
  16445               568,659           636,406          568,659                 0     67,747       1,272,812               0
  16792               326,365                 0                0                 0          0               0               0
  17035               408,404                 0                0                 0          0               0               0
  18628             2,058,051         2,811,198          259,549         2,197,550    132,191       5,400,488               0

 Subtotals     $15,081,179        $4,133,299        $2,344,830       $2,197,550      $268,699    $8,944,378         $170,409




www.oig.dhs.gov                                                 14                                                  DD-12-15
                                       OFFICE OF INSPECTOR GENERAL
                                               Department of Homeland Security


                                                                                                          EXHIBIT A
                                                                                                        (continued)
                                           Schedule of Projects Audited
                                    August 29, 2005, to September 12, 2011
                                Ochsner Clinic Foundation, New Orleans, Louisiana
                                      FEMA Disaster Number 1603-DR-LA

                                                     Questioned Costs
                                                                                          Total Costs    Unused
                                                                                          Questioned      Funds
 Project                                                                       Findings   in Findings
 Number       Finding A *        Finding B       Finding C        Finding D      E–G         B–G *      Finding H
Projects Added to Initial Scope of Audit
   4520       $      68,978      $         0     $     68,978     $       0    $      0   $    68,978    $          0
   4908              34,553                0           12,643             0           0        12,643               0
   6582              88,208                0                0             0           0             0               0
   6728              57,562                0                0             0           0             0               0
   6736               5,000                0                0             0           0             0               0
   9196            125,040                 0                0             0           0             0               0
  11757            521,430          480,523                 0             0           0       480,523               0
  12196              33,491                0                0             0           0             0               0
  12231            279,100                 0                0             0           0             0               0
  16110              91,500                0                0             0           0             0               0
  16618            183,321          167,340                 0             0           0       167,340               0

 Subtotals     $ 1,488,183      $ 647,863        $     81,621     $       0    $      0    $ 729,484     $          0
 All Other
  Projects     $ 1,697,403

    Totals     $18,266,765      $4,781,162       $2,426,451       $2,197,550   $268,699    $9,673,862    $170,409

   *The total amount questioned and recommended for disallowance is $18,266,765, which is the
   total amount of Ochsner’s award (finding A). Because we cannot question the same costs
   twice, the additional amounts listed as questioned in findings B–G (questioned under different
   criteria than those used in finding A) and the unused funds identified in finding H are for
   FEMA’s consideration in case Ochsner claims costs above the $32,678,597 of insurance
   proceeds that FEMA determined were applicable to FEMA-eligible costs/losses (or the final
   amount FEMA determines based on future adjustments to insurance proceeds).




www.oig.dhs.gov                                              15                                          DD-12-15
                                 OFFICE OF INSPECTOR GENERAL
                                   Department of Homeland Security


                                                                              EXHIBIT B
                                       Report Distribution List

                         Ochsner Clinic Foundation, New Orleans, Louisiana

                               FEMA Disaster Number 1603-DR-LA


 Department of Homeland Security

 Secretary
 Chief Financial Officer
 Under Secretary for Management
 Audit Liaison, DHS

 Federal Emergency Management Agency

 Administrator
 Chief of Staff
 Chief Financial Officer
 Chief Counsel
 Director, Risk Management and Compliance
 Executive Director, FEMA Louisiana Recovery Office
 Audit Liaison, FEMA Louisiana Recovery Office
 Audit Liaison. FEMA Region VI
 Audit Liaison, FEMA (Job Code G-11-044)

 Grantee

 Director, Louisiana Governor’s Office of Homeland Security and Emergency Preparedness
 Audit Liaison, Louisiana Governor’s Office of Homeland Security and Emergency Preparedness

 State

 Louisiana Legislative Auditor

 Subgrantee

 Executive Vice President – Treasurer, Ochsner Clinic Foundation




www.oig.dhs.gov                               16                                   DD-12-15
ADDITIONAL INFORMATION AND COPIES

To obtain additional copies of this report, please call the Office of Inspector General
(OIG) at (202)254-4100, fax your request to (202)254-4305, or e-mail your request to
our OIG Office of Public Affairs at DHS-OIG.OfficePublicAffairs@dhs.gov. For
additional information, visit our OIG website at www.oig.dhs.gov or follow us on Twitter
@dhsoig.

OIG HOTLINE

To report alleged fraud, waste, abuse or mismanagement, or any other kind of criminal
or noncriminal misconduct relative to Department of Homeland Security programs and
operations:

• Call our Hotline at 1-800-323-8603

• Fax the complaint directly to us at (202)254-4292

• E-mail us at DHSOIGHOTLINE@dhs.gov; or

• Write to us at:
        DHS Office of Inspector General/MAIL STOP 2600,
        Attention: Office of Investigation - Hotline,
        245 Murray Drive SW, Building 410
        Washington, DC 20528

The OIG seeks to protect the identity of each writer and caller.
